HHS/OIG, Audit - "Review of Nursing and Allied Health Education Payments to St. John's Riverside Hospital for Calendar Year 2004," (A-02-06-01022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing and Allied Health Education
Payments to St. John's Riverside Hospital for Calendar Year 2004," (A-02-06-01022)
May 9, 2008
Complete
Text of Report is available in PDF format (291 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For calendar year 2004, St. Johns Riverside Hospitals
(the hospital) nursing education program met both Medicare eligibility and
reimbursement requirements.  Pursuant to Federal regulations, Medicare shares in
the cost of approved nursing education activities operated by providers.
Because the hospitals program met Medicare requirements, this report contains
no recommendations.